<html>
<title> - THE STATUS AND OUTLOOK FOR U.S. AND NORTH AMERICAN ENERGY AND RESOURCE SECURITY</title>
<body><pre>[Senate Hearing 115-353]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-353

THE STATUS AND OUTLOOK FOR U.S. AND NORTH AMERICAN ENERGY AND RESOURCE 
                                SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 18, 2017

                               __________









[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]











                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
                                      ______
		 		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 		 
 26-867                    WASHINGTON : 2018                 
		 	         
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
CORY GARDNER, Colorado               JOE MANCHIN III, West Virginia
LAMAR ALEXANDER, Tennessee           MARTIN HEINRICH, New Mexico
JOHN HOEVEN, North Dakota            MAZIE K. HIRONO, Hawaii
BILL CASSIDY, Louisiana              ANGUS S. KING, JR., Maine
ROB PORTMAN, Ohio                    TAMMY DUCKWORTH, Illinois
LUTHER STRANGE, Alabama              CATHERINE CORTEZ MASTO, Nevada

                      Colin Hayes, Staff Director
                Patrick J. McCormick III, Chief Counsel
  Brianne Miller, Senior Professional Staff Member and Energy Policy 
                                Advisor
                   Severin Wiggenhorn, Senior Counsel
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
           Scott McKee, Democratic Professional Staff Member
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     2

                               WITNESSES

Webster, Jamie, Senior Director, Center for Energy Impact, Boston 
  Consulting Group...............................................    11
Mills, Mark P., Senior Fellow, Manhattan Institute...............    17
Cheney, Stephen A., Brigadier General USMC (Ret.), Chief 
  Executive Officer, American Security Project...................    25
Coward, Robert, President, American Nuclear Society..............    34
McGroarty, Daniel, Principal, Carmot Strategic Group Inc.........    40

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Birol, Dr. Fatih:
    Written Statement............................................     5
    Responses to Questions for the Record........................    93
Cantwell, Hon. Maria:
    Opening Statement............................................     2
Cheney, Brigadier General Stephen A.:
    Opening Statement............................................    25
    Written Testimony............................................    27
    Responses to Questions for the Record........................    74
Coward, Robert:
    Opening Statement............................................    34
    Written Testimony............................................    36
    Responses to Questions for the Record........................    79
McGroarty, Daniel:
    Opening Statement............................................    40
    Written Testimony............................................    42
    Responses to Questions for the Record........................    81
Mills, Mark P.:
    Opening Statement............................................    17
    Written Testimony............................................    20
    Responses to Questions for the Record........................    71
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
Webster, Jamie:
    Opening Statement............................................    11
    Written Testimony............................................    13
    Responses to Questions for the Record........................    68

 
THE STATUS AND OUTLOOK FOR U.S. AND NORTH AMERICAN ENERGY AND RESOURCE 
                                SECURITY

                              ----------                              


                         TUESDAY, JULY 18, 2017

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:35 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning. The Committee will come to 
order.
    We are here today to consider the status of U.S. and North 
American energy and resource security, to review our 
production, our imports and our exports and where we are as a 
country, as a continent, in light of them.
    The good news, I think, is that we are in a much better 
place today than even a few short years ago. It was not long 
ago that peak oil and the need for LNG exports dominated policy 
discussions here on Capitol Hill. Prices were high, our 
production levels were low and our energy security was at risk 
as a result of outside decisions and disruptions, particularly 
those in the Middle East.
    But I think we have seen that times have changed, and I 
would say for the better, due to tremendous innovation and 
technological advances, our nation has moved away from energy 
scarcity and isolation. We are in the midst of a significant 
surge in oil and natural gas production with renewables making 
a noteworthy contribution.
    We have also taken steps to open up our markets, especially 
by lifting the ban on export of domestic crude oil which by all 
accounts stands as a smart, timely and beneficial move.
    Today we are far more energy secure than at any point in 
recent memory, and we have reached a point where energy 
dominance, to borrow the Administration's phrase, has become a 
real and legitimate policy goal.
    We are in a position to export energy to our allies, 
lessening their dependence on unfriendly and unpredictable 
regimes around the world. That will allow us to create new 
jobs, generate new revenues and improve our balance of trade, 
while also providing affordable and reliable energy supplies to 
countries around the world.
    OPEC no longer holds all of the cards when it comes to the 
price of oil. Our friends in Europe and Asia have an excellent 
new option to reduce their dependence on natural gas from 
Russia. This Administration, I think, deserves support for its 
efforts to increase access to keep these good trends going.
    Alaska is certainly ready to help strengthen our energy 
security. We are the most resource rich state in the nation. We 
currently account for six percent of the total energy 
production in the United States, but we have the opportunity to 
do a lot more.
    Given recent discoveries both onshore and offshore in 
Alaska, along with our long-standing efforts to produce in our 
national petroleum reserve, the non-wilderness portion of ANWR 
and our offshore Arctic, we can and should celebrate this 40th 
anniversary of the Trans-Alaska Pipeline System by agreeing to 
refill it. Doing so would help our economy, our budget and our 
energy security while at the same time making sure that we 
protect the environment.
    Of course, oil and gas are just a part of the energy 
security picture. We have abundant coal reserves, significant 
growth in renewable generation, a large nuclear fleet and a 
reliable electric grid. Yet, we should also recognize that some 
developments, especially those in nuclear energy, are not as 
positive and threaten our long-standing, global leadership in 
key fields.
    We cannot forget about our mineral security either. It is 
routinely ignored but increasingly critical to our future. We 
are becoming more and more reliant on minerals for everything 
from smartphones and solar panels to advanced defense systems, 
but our mineral security has fallen dramatically year after 
year. I believe that we have to pay greater attention to this, 
and we have to take steps to resolve it.
    This morning's hearing is also an opportunity to recognize 
our close ties with our neighbors, Canada and Mexico, which 
also have dynamic energy sectors. We have long had robust 
energy trade with both nations through both electric grids and 
pipeline systems. As we look to what the future will hold, we 
should consider not only our national security but also our 
continental security and the significant benefits that will 
provide to us.
    I want to welcome our distinguished panel who will help us 
understand what is happening in global markets and with 
geopolitics, from domestic production and export policies to 
potential sanctions on other nations. There is a lot to 
consider, to understand and to work through right now.
    I thank you all for being here to share your expertise with 
us, and I look forward to your testimony.
    At this time, I will turn to Ranking Member Cantwell for 
her comments.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair. Thanks for 
scheduling today's hearing on energy and resource security.
    As we all know from the Quadrennial Energy Review that was 
done in the last Administration about the energy needs of our 
country moving forward, enhancements to our electricity grid 
for more renewable energy sources and the complexity of dealing 
with aged infrastructure and what I would call, probably, 
robust commodity competition on our rail lines and the 
structure of where energy is developed and moved to, has 
created new challenges.
    The Quadrennial Energy Review also pointed out the very 
important need to protect critical energy infrastructure from 
both physical and cybersecurity threats. I believe we must take 
this action very seriously in protecting our energy 
infrastructure from cybersecurity threats to ensure America's 
energy security of the future.
    As was just reported last week by the Washington Post, it 
is clear now that there were Russian government hackers who 
tried to infiltrate a U.S. nuclear power plant. I believe we 
need to act and we need to act now.
    Our grid and energy networks are under constant 
cyberattack. From 2012 to 2016, reported cyber incidents 
against U.S. critical infrastructure more than doubled. In 
December 2015, suspected Russian hackers infiltrated three 
Ukrainian utilities knocking out power to more than 225,000 
customers and they did it again to a utility north of Kiev 
earlier this year. Recently, the U.S. Department of Energy 
described the incident in Ukraine as ``step change in 
sophistication and intent of hackers.''
    My colleagues and I have repeatedly pressed the President 
and Secretary of Energy to take more aggressive cybersecurity 
action now. I would also say that our House colleagues need to 
get more serious about cybersecurity. As the Washington Post 
noted, ``Russian government hackers have already shown their 
interest in targeting U.S. energy and other utility systems.'' 
In fact, the Russians have more than just a passing interest in 
infiltrating our grid. Just 10 days ago the Post reported that, 
``Russian government hackers were behind cyber intrusive 
attacks into the business systems of U.S. nuclear power plants 
and other energy companies in what appears to be an effort to 
assess their networks.'' This should set off alarm bells across 
our government and energy sector and the general public, and I 
have requested a secure briefing on exactly what has transpired 
in this matter.
    In addition, the Christian Science Monitor has reported, 
``Cyber spies linked to China's military targeted nearly two 
dozen U.S. natural gas pipeline operators stealing information 
that could be used to sabotage U.S. gas pipelines.''
    Although we have mandatory cybersecurity standards for 
electric utilities, natural gas and pipelines are merely 
subject to voluntary agreements issued by the Transportation 
Security Administration, which has a small staff to oversee 
millions of miles of pipelines that transverse the country.
    The security of our pipelines is not only important to 
prevent attacks, but also to protect the public. DOE's most 
recent Quadrennial Energy Review suggested it is important that 
we consider whether additional or mandatory cybersecurity 
guidelines are necessary for natural gas pipelines given their 
increased dependence between the electric and natural gas 
sectors.
    Now that we see these vulnerabilities that the Russians 
have exposed to hacking our grid and the cybersecurity threat, 
we need to take additional actions. So I want to make sure that 
we are pushing the Administration in helping plan for the 
future.
    Today, I am sending a letter to the Government 
Accountability Office to ask them to conduct an assessment that 
the United States must prioritize protection of our critical 
energy infrastructure and we cannot afford to wait before we 
have a large-scale attack. I hope to get an answer on where we 
are with our abilities on pipelines and making sure that our 
pipelines are secure for the future.
    Madam Chair, we also, obviously, learned from the 
Quadrennial Energy Review that we need to continue to diversify 
our energy mix and the consequence of climate change that 
threatens the well-being and increases geopolitical issues 
around the globe. In the G7, they noted the importance of 
``reducing greenhouse gas emissions and accelerating the 
transition to a low carbon economy as a key contributor to 
enduring energy security.'' So I couldn't agree more. There is 
alot to do, and lots of changes have happened in the energy 
sector. We must prioritize those things that are going to help 
us be secure for the future.
    I look forward to hearing from the witnesses today.
    The Chairman. Thank you, Senator Cantwell.
    We will now begin with our panel.
    I would mention to colleagues that we had invited Dr. Fatih 
Birol, who is the Executive Director for the International 
Energy Agency. He has appeared before this Committee many times 
and up until yesterday we believed that we had been able to 
work a schedule. But he has not been able to work within the 
limitations that we had and not without great effort on his 
part as well.
    I appreciate his willingness to testify. Even though he is 
not with us, we do have his written testimony which will be 
included as part of the record.
    [The information referred to follows:]


 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    The Chairman. We have a very distinguished panel today.
    We will begin with Mr. Jamie Webster. Mr. Webster is the 
Senior Director for the Center for Energy Impact at Boston 
Consulting Group.
    Mr. Mark Mills has also been before the Committee. He is a 
Senior Fellow at the Manhattan Institute.
    We have Brigadier General Stephen Cheney, who is the Chief 
Executive Officer for the American Security Project (ASP); and 
Mr. Robert Coward, who is the President of the American Nuclear 
Society. We welcome you to the Committee.
    Mr. Dan McGroarty will wrap the panel up. He is the 
Principal of Carmot Strategic Group.
    We would ask you to try to keep your comments to five 
minutes. Your full statements will be incorporated as part of 
the record.
    Mr. Webster, if you would like to lead us off?

STATEMENT OF JAMIE WEBSTER, SENIOR DIRECTOR, CENTER FOR ENERGY 
                IMPACT, BOSTON CONSULTING GROUP

    Mr. Webster. Thank you very much, Chairman Murkowski, 
Ranking Member Cantwell and members of the Committee. I 
appreciate the opportunity to testify before you today on the 
current status and outlook of the U.S. North American energy 
security. I appear before you in my role as a Senior Director 
at the Boston Consulting Group's Center for Energy Impact and 
also a non-resident Fellow at Columbia University.
    The United States is undergoing an energy revolution that 
is expanding U.S. oil and gas capabilities in all ways, from 
production, to pipelines, refineries, storage facilities and 
export terminals. This has impacted the global supply balance, 
changed trade relationships and lowered prices for consumers. 
This increased energy security has allowed the United States to 
take a leading role as a global energy supplier.
    The U.S. Energy Information Administration has noted that 
the U.S. has now, for the fifth year in a row, the largest 
natural gas and oil producers in the world. For U.S. natural 
gas that production rise began in 2006 and has expanded more 
than one-third since that time. In light of this, U.S. energy 
security, as it relates to natural gas and the concerns about a 
lack of natural gas and the need for imports quickly vanished 
as Henry Hub dipped below $5.00 in 2008 and have not risen 
above that level, sustainably, since that point.
    Since that, since the price decline, the resilience of U.S. 
producers has been aided by finding new markets, with U.S. LNG 
now being offered for sale on a global basis. Far from 
imperiling U.S. energy security, these rising exports are 
actually increasing energy security for both the U.S. and the 
world. The ready export outlet will allow producers to keep 
natural gas flowing into homes and power plants at less cost, 
and exports of LNG are providing consumer countries with 
another choice of energy supplier, allowing them to negotiate 
better pricing and increasing market responsiveness.
    The U.S. is now expected to be one of the top three natural 
gas exporters in the world by 2020. To meet this there are 
expectations of export terminals on all three coasts. Along 
with that is a growth in natural gas storage which has expanded 
more than a trillion cubic feet in the past 10 years with more 
than 20 new fields added.
    Oil from the shale region started to grow after production 
in natural gas was hit by the lower prices and arguably had its 
first significant impact in 2011 when U.S. light, sweet crude 
began to replace imported barrels from OPEC's Nigeria. This was 
an important energy security turning point as it blunted the 
risk of production outages from this country. A reminder that 
Nigerian production outages caused by strife in the Nigerian 
Delta region were a key factor in raising global oil prices 
above $100 in 2008, that summer U.S. drivers paid as much as 
$4.72 per gallon for gasoline. This past Fourth of July 
weekend, 20 percent of consumers were able to get natural gas--
gasoline for less than $2.00.
    There are concerns about the longer-term durability of 
North American energy security, particularly as it relates to 
oil. Those risks include: high decline rates; oil production in 
the shale regions decline by as much as 300,000 barrels a day, 
requiring substantial activity to keep going; drilled but 
uncompleted wells which are up by over 1,000 wells in the last 
year--the lack of being able to actually complete those is 
slowing down production growth; and a dependence on the Permian 
where most, 60 percent of production growth in the last year 
has actually come out of the Permian versus other places.
    Now there has been substantial growth in terms of rig 
productivity. A rig brought on today delivers 2.5 times as much 
productivity as a rig that was brought on in 2014, a credit to 
what the United States energy industry is able to do.
    The longer-term concern is the sufficiency in the global 
context that the U.S. oil is actually still a fairly small part 
of the system and a longer-term concern that there won't be 
enough investment to keep prices down in the three- to five-
year timeframe.
    We've also had extremely strong growth in refined product 
and being able to store oil over 100 million barrels a day. One 
hundred million barrels has now been put into capacity over the 
last several years, expanded storage capacity has also 
supported the operational needs for refineries, with refineries 
now producing or being able to produce 18.1 million barrels a 
day of capacity. This is the fifth year in a row that they've 
grown.
    The advantage to increased production, pipeline refinery 
and storage capacity in the United States is an expansion of 
not just our own energy security, but the ability to extend 
that to other countries. Add to this impressive mix that the 
fact that the United States has the most transparent, frequent 
and capable energy data system in the world in the guise of the 
Energy Information Administration, and this allows the benefits 
of the U.S. to be known and transmitted to all market 
participants benefiting and increasing energy security in the 
U.S. but also globally.
    Thank you very much.
    [The prepared statement of Mr. Webster follows:] 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    The Chairman. Thank you, Mr. Webster.
    Mr. Mills, welcome.

 STATEMENT OF MARK P. MILLS, SENIOR FELLOW, MANHATTAN INSTITUTE

    Mr. Mills. Good morning. Thank you, Madam Chairman and 
thank you, Senators, for the opportunity to testify.
    I'd like to begin--I'm going to focus on geopolitics and 
security as well. I'd like to begin with, sort of, a mea culpa.
    It was about five years ago I published a paper titled, 
``Unleashing a North American Energy Colossus.'' And in the 
introduction of that paper I suggested that it was time that we 
begin to think in different terms and stop talking about energy 
independence and think in more of terms of energy influence and 
even, I wrote, ``energy dominance.''
    Setting aside the fact that that word has gained political 
salience, I'd like to say that it is, in fact, obvious that the 
reality is America is already dominating global energy markets. 
No one in Moscow or Reade doubts that the global price collapse 
in gas and oil happened for any reason other than the fact of 
this astonishing revolution in the American shale fields. 
They're worried not about what has already happened, but what 
could yet happen.
    Henry Kissinger, who all of us know, is a great statesman 
and sometimes the greatness expands with the passage of time 
which is a wonderful thing for statesmen. He wrote something 
that was, I thought, very insightful in 1999 in his book. He 
said, and I quote that, ``Statecraft is the ability to 
recognize the real relationship of forces.'' Let me very 
briefly summarize some real forces, three real forces of 
geopolitics.
    The first reality is that oil petroleum is more important 
to the global security and to the United States today than it 
was at the time of the Epoch setting 1973 oil embargo. The 
world consumes 150 percent more oil today than it did then. Oil 
is the world's largest traded commodity and the largest single 
source of energy supply in civilization today. In fact, 95 
percent of all transportation, over 95 percent, is powered by 
fuel-burning engines. And 60 percent of all oil is now used 
to--for transportation. That share in 1973 was just one-third.
    The second reality is that every credible forecast says 
that petroleum, and especially these days its hydrocarbon 
cousin, natural gas, will be more, not less important in the 
coming two decades. This is true, notwithstanding what I would 
call a universal affection for alternative energy, political, 
universal affection and literally hundreds of billions of 
dollars spent over the last four decades trying to replace oil 
and natural gas as primary sources of the world's energy. There 
are simply no prospects for reducing today's already enormous 
consumption of global gas and global oil, never mind reducing 
the increase that will come as the world's economies expand. 
Really the only debate today, at the fundamental level, is how 
big the increase will be, not whether or not there will be an 
increase in global consumption of oil and natural gas.
    The third reality is, of course, the wild card that no one 
expected a decade ago or, in fact, I'd even say, expected five 
years ago, which is the emergence of the technology that we now 
call the shale revolution. The United States is now not just a 
major player, but also a major exporter and a growing exporter 
in world markets for both oil and natural gas. I think the 
magnitude of that revolution is still underappreciated. As much 
as we talk about it and hear about it, it's still fundamentally 
unappreciated.
    Let me put it in this context. The quantity of energy and 
the velocity with which the amount of energy produced by the 
shale fields of America that secured in the past decade is the 
largest, single increase of energy supply to the world that has 
ever occurred in history, period.
    I'll put it in domestic terms. The increase in domestic 
energy production, the shale fields of the United States over 
the last 10 years is 2,000 percent greater than the subsidized 
increase of combined increase of wind and solar in the United 
States. This is an astonishing transformation of energy markets 
which is still, I think, profoundly underappreciated.
    And the world has been doubly impacted by the shale 
revolution. It's not just that the United States can export 
fuels; it's that we have taken hundreds of billions of dollars 
of purchases off of global markets. This has deprived oil 
exporting nations of literally trillions of dollars and most of 
that depravation has been borne by OPEC nations and by Russia.
    Now as cheap domestic gas has also triggered a profound 
increase in domestic and foreign direct investment in 
manufacturing in the United States. Over the next several years 
we'll see the effect of that as something on the order of $160 
billion in private capital and foreign capital has been put 
into over 200 chemical manufacturing plants in the United 
States that are slated to come online over the next few years. 
This will have profound economic and geopolitical implications.
    What comes next? Let me, again, context what comes next 
briefly in two ways.
    First, the EIA and the IEA, but in particular, the Energy 
Information Administration's two-decade forecast still sees the 
shale fields supplying 600 percent more net new energy to 
America than wind and solar combined. And that forecast from 
EIA assumes that over the next two decades the shale industry 
can only do as much as it did in the past single decade. I'd 
like to go on record here saying that that is almost certainly 
going to be an underestimate. Shale will do more. The reason it 
will do more is because of the information revolution that's 
now underway.
    There's a lot of discussion about how old industries of all 
kinds from groceries and transportation and car rental, hotels, 
are being impacted by analytics and big data and machine 
learning, Internet of Things. The 80 percent of our economy is 
tied up in the old part of our economic infrastructure which is 
being unleashed and revitalized by the new information 
revolution.
    Why would it not be the case that algorithms, if you like, 
won't unleash more productivity of the shale fields? I will 
tell you that not only are they likely to, they're already 
beginning to and in fact, one can argue they'll have a bigger 
impact there for the very simple reason that the shale industry 
has so far, to use an awkward phrase, is a least digitalized of 
our old economy.
    So the--let me conclude by quoting from Dr. Birol, who 
recently said in an interview that we are now witnessing the 
second unleashing of the shale expansion of the United States 
in shale production. And he said then it was price that would 
determine how fast that new production would grow.
    I'd like to respectfully disagree with half of what he 
said. The data are already in. The shale industry is in big 
resurrection mode from new technologies and from what Jamie has 
just said about the improvement in productivity, but we have 
just begun to see what will happen is information technology 
unleashes the second shale revolution, what I've called Shale 
2.0.
    I think the only question is not so much what the price 
will be, is the extent to which policy helps or impedes the 
unleashing of the second shale revolution.
    Thank you very much.
    [The prepared statement of Mr. Mills follows:]

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
         
    The Chairman. Thank you, Mr. Mills.
    Brigadier General Cheney?

STATEMENT OF STEPHEN A. CHENEY, BRIGADIER GENERAL USMC (RET.), 
       CHIEF EXECUTIVE OFFICER, AMERICAN SECURITY PROJECT

    General Cheney. Thank you, Chairperson Murkowski and 
Ranking Member Cantwell and members of the Committee for 
inviting me to testify at today's hearing.
    The American Security Project was founded in 2005 as a 
bipartisan initiative to tackle long-term challenges from a 
national security perspective, not encumbered by political 
bias. Our founders, Senators Kerry, Hagel, Hart and Rudman, 
asked to host the retired general and admirals to join ASP 
because their only interest was the security of our country.
    Our Chairperson, former New Jersey Governor, Christine Todd 
Whitman, and our entire board share a strong belief that energy 
security for the United States and how we produce energy is a 
national security issue of preeminent importance.
    My role in today's hearing will be to offer a perspective 
of a national security professional. Having spent over 30 years 
as a Marine I know that, for the military, assured access to 
energy is a prerequisite to any operation. In the last 15 years 
the military has learned the hard way that energy should not be 
taken for granted. Our supply lines in Iraq and Afghanistan 
were a constant target for insurgents. In response, all four 
services have taken significant steps to both increase energy 
efficiency and reduce their single source dependence on 
petroleum fuels. Our country can learn a lot from our 
military's experience.
    Before we can discuss where we are in energy security, we 
have to understand what we are asking. Energy security is 
generally defined as the ability to have uninterrupted access 
to energy resources at an affordable price. That's a start, but 
I don't think it's enough because of the indelible link with 
global affairs.
    Our nation's concept of energy security was defined in the 
American mind by the two oil crises of the 1970s. To ensure 
that nothing like that ever happens again should be our goal in 
building energy security; therefore, I would propose that we 
define energy security as the ability of a country to define 
its interest overseas independently from how it uses energy 
domestically.
    More importantly, energy security must not mean energy 
independence in the sense that all energy used in the United 
States comes from within its borders without international 
trade. In today's globalized world, this is neither attainable 
nor desirable. Even domestically-produced energy sources are 
subject to fluctuation in global commodity markets. We must see 
energy security in today's world as where countries, businesses 
and people share and compete in the global marketplace. In 
today's globalized world, if one country doesn't have security, 
their neighbors and allies don't have security either.
    Finally, I will argue that we must see energy security as a 
long-term process, not as a moment frozen in time. Some 
policies and actions could build security today while harming 
our future security. Climate change is already affecting 
security both at home and around the world, so we must make 
sure that we take the greenhouse gas emissions from energy into 
account less we trade increased energy security today for a 
warmer, more unstable world in the future.
    Thinking long-term, this way also means that we must invest 
now in scientific research and development into the next 
generation of energy technology. Factoring together each of 
these variables, my message to you Senators is that the current 
status of North American energy and resource security is good, 
but the outlook is hazy.
    There are few threats to America today that could stop our 
access to global energy markets, but I am concerned that there 
are emergent threats that could undermine our future security, 
if not addressed soon. Moreover, we must guard against bad 
policy that could undermine our future security.
    Our amazing increase in the production of oil and gas has 
given us some breathing room and the opportunity to invest in 
other long-term sources of energy. We cannot sit back and revel 
in our success with fossil fuels. We should not let our 
expertise in nuclear energy atrophy and ought to be pursuing 
small modular reactors. We ought to be continuing to support 
the rapid proliferation of renewables of all kinds to include 
wind, solar and biofuels. We ought to take advantage of this 
remarkable progress made in metallurgy and science to pursue 
fusion energy. We have seen far too many countries rely on a 
sole source of energy and look what has befallen many of them, 
not the least of which, perhaps, are Venezuela and Nigeria.
    We have a golden opportunity in front of us right now and 
we need to capitalize on it.
    Thank you.
    [The prepared statement of General Cheney follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you.
    Mr. Coward, welcome.

            STATEMENT OF ROBERT COWARD, PRESIDENT, 
                    AMERICAN NUCLEAR SOCIETY

    Mr. Coward. Chairman Murkowski, Ranking Member Cantwell, 
members of the Committee, thank you very much for the 
opportunity to testify today.
    I am here in my role as President of the American Nuclear 
Society. Our society is dedicated to the peaceful use of 
nuclear science and technology. Our 11,000 members come from 
all sectors of the nuclear energy community: utilities, 
suppliers, national labs, universities, government agencies.
    We commend the Committee on its bipartisan work to 
modernize U.S. energy research and development and production 
policies.
    The focus for today is energy security, and by energy 
security I'm going to agree with Brigadier General Cheney, what 
we really mean is resiliency. I'm going to focus on the 
electricity and the electricity grid since that's my main area 
of experience. And for the grid, energy resiliency is a simple 
concept. Independent of whether the sun is shining, the wind is 
blowing, the coal pile is stocked or the natural gas pipeline 
is flowing, we have confidence in our ability to deliver 
electricity to the grid.
    If you think about the Polar Vortex in 2014 in the 
Northeast, coal piles froze, natural gas pipelines were choked. 
Without the nuclear plants that remained online, we very likely 
would have faced widespread blackouts.
    Nuclear power plants refuel every 18 to 24 months, so they 
don't rely on just-in-time fuel delivery or specific weather to 
operate at full power. Over the past 15 plus years, U.S. 
nuclear plants have operated over 90 percent of the time. 
Typically shutting down only for long-planned refueling. This 
is truly the definition of resilient.
    Resiliency also extends to stability and predictability of 
pricing and cost. A nuclear power plant can accurately predict 
the cost of the power it will produce for every day of the 
coming year and, often, for multiple years.
    Nuclear power plants also help anchor the electricity grid 
in the U.S. Grid operators rely on nuclear's roughly 20 percent 
share of power production to maintain stability as electricity 
demands rise and fall throughout the day. A crucial attribute 
as intermittent sources become a larger percentage of our 
generation portfolio.
    Energy security also demands that we generate power in ways 
that preserve our resources and protect our environment. This 
is where nuclear power begins to truly stand out.
    Nuclear power accounts for about 60 percent of all U.S. 
non-emitting electricity generation, emitting essentially no 
greenhouse gases or pollutants. Yes, nuclear power generates 
used fuel and other waste, however, those are small in volume, 
contained in space and can be handled and disposed of with 
safe, non-hazardous methods.
    Nuclear power plants also have a high energy density, very 
small, physical footprint. For example, the electricity 
generated from a 1,000-megawatt power reactor which typically 
sits on about 1.5 square miles would require about 50 square 
miles of solar panels or a wind farm over about 300 square 
miles of wind turbines.
    Finally, the U.S. nuclear power sector contributes to our 
national security, a factor sometimes as misunderstood as it is 
important. Almost all nuclear power programs around the world 
trace their technology back to U.S. origins. For decades, our 
role as the worldwide leader in nuclear technology has enabled 
us to positively influence the nuclear safety and non-
proliferation norms of the world.
    Right now, dozens of nations are building nuclear power 
plants or actively considering adding nuclear to their 
portfolio for all the same reasons I described for us. These 
countries are going to proceed whether we participate or not. 
If U.S. suppliers cannot compete in this geopolitically 
significant marketplace, our competitors in Russia and China 
will and they will win. And it is unrealistic to think that 
U.S. suppliers can compete in world markets without a healthy 
nuclear power program here at home.
    Nuclear power is the ultimate, strategic, long-term asset; 
however, we increasingly find ourselves in a tactical, short 
attention span, ``what have you done for me yesterday'' world. 
As leaders and policymakers, we cannot allow our long-term 
energy and national security interests to be determined by how 
much electricity costs on a spot market at two a.m. on a Monday 
morning.
    Resilient, reliable, non-emitting and clean power plants 
are shutting down. We must be strategic.
    With that goal in mind, we recommend Congress consider the 
following strategic directions: support the current U.S. 
nuclear fleet--they are vital U.S. assets; equalize the level 
of subsidies, tax credits and regulatory costs for all non-
emitting sources and fund continued R&D to extend the life of 
these valuable facilities; continue and expand support for the 
development of small modular and advanced reactor systems; 
continue to invest in the development of the next generation 
workforce and the research and development infrastructure at 
our national labs and universities; demonstrate forward 
progress on fixing our broken nuclear waste policy; and last, 
improve our nuclear export regulations and financing 
opportunities to ensure that U.S. nuclear manufacturers and 
suppliers can be competitive in the international markets. It's 
important.
    I thank you again for the opportunity to speak today, 
commend the Committee for its leadership in nuclear technology 
policy and I look forward to answering any questions.
    [The prepared statement of Mr. Coward follows:] 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Thank you, Mr. Coward.
    Mr. McGroarty, welcome.

           STATEMENT OF DANIEL McGROARTY, PRINCIPAL, 
                  CARMOT STRATEGIC GROUP INC.

    Mr. McGroarty. Thank you.
    My thanks to Senator Murkowski, Ranking Member Cantwell and 
members of the Committee for the opportunity to take part in 
the hearing this morning.
    I am Principal of Carmot Strategic Group, an issues-
management firm based here in Washington, DC, and strategic 
resource issues are a core element in my practice.
    By way of disclosure, I advise Texas Mineral Resources, 
Graphite One, American Manganese and Rio Tinto, companies that 
are working to develop new sources of metals and minerals 
ranging from copper and graphite to cobalt, manganese and rare 
earths.
    I also run the American Resources Policy Network, a virtual 
think tank that focuses on all aspects of domestic non-fuel 
resource production, and I consult to the Institute for Defense 
Analyses, which supports the Department of Defense on issues 
related to strategic materials and resource security. In my 
testimony today, the views I express are my own.
    The focus of today's hearing, the outlook for U.S. and 
North American energy and resource security, offers a starkly 
differing portrait. On the energy side, as we've heard, the 
emergence of a vibrant oil and natural gas sector after 
generations of energy dependence, a resurgence so remarkable 
that we are now seeing the U.S. transformed into an energy 
exporter. On the hard-rock side of the resource sector, the 
picture is dramatically different, a deepening dependency on 
foreign supply for more and more metals and minerals.
    According to the most recent USGS Mineral Commodity 
Summary, the United States is now 100 percent import-dependent 
for 20 metals and minerals, up from 19 a year ago. Meanwhile, 
there are now 50 metals and minerals for which we are more than 
50 percent import-dependent, compared to 43 just one year ago. 
That's roughly half the naturally-occurring elements on the 
Periodic Table.
    As for where our metals and minerals come from, the USGS 
map shown here, the heat chart, shows which nations provide the 
minerals for which the U.S. is more than 50 percent dependent. 
Of the 50 metals on that list, China is a significant supplier 
of 28. That's up from 21 just one year ago. As just one 
indicator of our resource reliance on China, in the 206 pages 
of the current USGS report, the word ``China'' appears 384 
times.
    Let me share with the Committee a quick snapshot of the 
degree of our dependency. We are 100 percent dependent for 
graphite and manganese, needed in the lithium-ion batteries 
that power our electric cars as well as the drones flying over 
Iraq, Afghanistan and our southern border. We're 100 percent 
dependent for the rare earths used in wind turbines and in our 
F-35 Joint Strike Fighter. We're 100 percent dependent for the 
indium that conducts heat from our fingertips to our touch 
screens and enables our special operators' night vision 
goggles. We're 99 percent dependent on gallium needed for solar 
panels as well as missile defense radar. We're more than 80 
percent dependent on imported rhenium used in jet fighter 
turbines and more than 70 percent dependent for the tellurium 
used in solar panels and for the cobalt used in EV batteries 
and jet aircraft super-alloys. And this, in spite of the fact 
that the U.S. is resource rich, blessed with known resources of 
dozens of the critical metals and minerals that are shaping our 
21st century.
    Without in any way diminishing the dangers of our resource 
dependency, I do want to note some positive developments taking 
place, largely in the area of process improvements that point 
to the ability to extract minerals from unconventional sources. 
I'm talking about reclamation programs supported by the 
Department of Energy and the Critical Materials Institute to 
extract rare earths from coal deposits, from waste piles left 
behind by prior mining and to advance recycling efforts to 
recover metals from eWaste. Add to that, projects backed by the 
Defense Logistics Agency to encourage domestic production of 
metals and minerals needed for advanced weapons platforms.
    But in a $4 trillion federal budget, spending more than $10 
billion each day, every day, the collective funding for these 
innovative efforts amounts to just a few hours of federal 
spending at a time when state-backed enterprises from China and 
Russia are focused on locking up metals and mineral deposits 
worldwide. On a geo-political level, a resource war is 
underway, but for the U.S. the battle has not been joined.
    If we are serious about ensuring U.S. military power and 
reviving American manufacturing, we must reverse the deep 
dependency on foreign metals and minerals and treat American 
resource security with the same seriousness and one would hope, 
the same success, as our approach to American energy security.
    Thank you.
    [The prepared statement of Mr. McGroarty follows:]


 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
         
    The Chairman. Mr. McGroarty, thank you. I appreciate your 
comments there just in reminding us some of the daily uses that 
we all take for granted and the vulnerability that we have.
    I would like to start off my questions this morning focused 
a little bit on oil, and specifically, to the oil export ban.
    It has been a couple years now, 19 months exactly, since we 
lifted the domestic ban on crude oil. There was a lot of 
discussion at that time about what may or may not come about 
were we to roll back that policy that had been in place for 
decades.
    There were some who said, nobody is going to want U.S. oil. 
There were those that predicted that the price would skyrocket 
if anybody did actually buy it. But instead what we have seen 
are prices that have been relatively moderate, even as our 
exports have now topped over a million barrels a day, just in 
some recent weeks.
    I guess I would direct this to you, Mr. Webster, and to 
you, Mr. Mills, in terms of where we are with the opportunities 
that we have as oil exporters and the international benefits 
that then come to it. Mr. Webster, you certainly referred to 
that. But again, there was a lot of speculation that there was 
going to be, not a doomsday scenario, but that some of the 
fears that have been talked about were going to materialize and 
19 months, perhaps, is not enough of a test case for us. Do you 
see this moving forward into the out years in terms of 
stability of prices and, again, just the opportunities that 
come with developing these alliances with other nations that 
are eager to receive our oil?
    Mr. Webster?
    Mr. Webster. Thank you, Chairman Murkowski, for that 
question and thank you for, I know you worked on this issue 
quite a bit when it was coming up. I remember your speech at 
the Brookings Institution some years ago to, kind of----
    The Chairman. We dared to raise the issue.
    Mr. Webster. Yes.
    The Chairman. And low and behold.
    Mr. Webster. I will answer your question on has there been 
enough time. I think there actually has been enough time, that 
this has been fantastic for U.S. producers, U.S. consumers and 
the concerns that this would really hamper U.S. refiners and 
cause them to stop investing and there would be a real loss is 
belied by the recent EIA report that refinery capacity in the 
United States has actually grown again. And so, this is despite 
the view that, you know, the concern that some had at the time 
that we'd be exporting our resource and leaving us in a worse 
spot.
    We're exporting, as you said, more than a million barrels a 
day at times to as many as 26 countries per the EIA. Prices and 
the differentials that are required to allow exports but still 
allow refineries to take on that oil have been there, so you 
have seen a lot of oil go in other places.
    The interesting thing is that it has given both domestic 
and international refiners a greater range of choice. 
Refineries don't just use one particular type of oil, so they 
can now more tailor make their slate of oils. That's why you're 
starting to see, actually, an increase in crude oil imports 
back into the United States as they are blending that increased 
production out of the United States, crude oil which is quite 
light, as you know, and blending it with other, sort of, 
material from other countries.
    This has been a benefit in that this extends U.S. 
production to other countries. And obviously, at least in my 
opinion, any oil that comes out of the United States is 
generally more stable than just about any other, sort of, oil 
in terms of that going forward.
    So I think it's been extremely positive.
    The Chairman. Mr. Mills, do you care to comment?
    Mr. Mills. Let me agree with Jamie and also thank you for 
your leadership on this. It was those of us in the community 
who thought we should export oil were, seemed to be a minority, 
even on both sides of the political aisle for quite a long 
time.
    I think it's unequivocally the case that the experiment of 
19 months has demonstrated the benefits overall for consumers 
everywhere, not just America. We've helped stabilize the world.
    Let me answer the question about what could be done next, 
where could we go? I think we have untapped opportunity to do 
far more. We're now a larger exporter of crude than five OPEC 
nations, four or five OPEC members. We could become one of the 
largest, by that I mean North America, one of the largest 
exporters of both crude and natural gas in the coming decades.
    This would be astonishingly impactful and very beneficial, 
not just to our security but to our economy and to the world 
because we play a role in, not only stabilizing prices, we're 
now, in effect, half of the throttle. It used to be OPEC was 
the entire throttle on oil prices. We now, we have our hands 
firmly on the wheel and one foot on the gas pedal as well which 
means that oil prices are going to be range bound in the future 
by American behavior.
    We could change the game, not just by helping the shale 
industry by getting out of the way, so to speak, but there's a 
lot more to be done yet. I mean, I'm saying the obvious to you 
but when you think of a combination of what Alaska can yet do 
and has not been unleashed to do, what the Gulf of Mexico is 
just starting to do and the new leases that the nation of 
Mexico has granted to foreign entities to begin producing from 
the shallow waters, the very productive shallow waters that 
they own. If we add to that the rest of the Atlantic Coast and 
the other conventional deep-water capacities we have which are 
getting better, this combination in the United States, I think, 
is reasonable to think in terms of, not just increasing a 
little bit, we could double, triple and quadruple our exports 
of oil and natural gas. This is profoundly impactful.
    And it doesn't mean, and I'll state for the record because 
when you, when one is bullish about oil and gas the implication 
is that one doesn't think that we should pursue alternatives 
for oil and gas. The reason in my opening remarks I pointed out 
the realities is that realities are what they are.
    Airplanes in the world fly on oil and they will for a long 
time. Most cars, even if Elon Musk is astonishingly successful, 
even more successful than he's already been, most cars will 
still burn oil 20 years from now. The world needs lots of oil 
and gas. We can do both, and we can generate the economic 
foundation if we're doing the alternatives by having cheap 
energy in the primary areas. And that's where all the United 
States, and in particular, unleashing that trapped oil that I'm 
very familiar with in Alaska that needs to get down in that 
pipeline and get into world markets.
    The Chairman. Thank you both.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    Gentlemen, I think in a different decade we would be here 
talking about supply disruptions and challenges, but today we 
are here and the issues of supply disruption now take a new 
twist and turn and that is the issue of cybersecurity.
    Brigadier General Cheney, you mentioned this. How much do 
you think we need to think about upgrading our security of our 
critical infrastructure as it relates to these recent attacks, 
both internationally and domestically?
    General Cheney. Well Senator, thanks for your question and 
there is no doubt cyber is a huge threat, a threat to our 
security, threat to our energy sources.
    As you well explained, there's been multiple attacks on all 
of our grids and if we just put our head in the sand and don't 
put the funding toward it or the research that's needed to 
counter these, it's going to get worse, significantly worse. If 
the Administration reduces funding to those opportunities that 
we have to counter cyber threats, then they're just going to 
get worse.
    So this is a tremendous threat to our national security, 
and it's worldwide. The military sees it every day, and that's 
why we created Cyber Command. We put our best and brightest 
over there to counter those threats. When you see what can be 
done to the grids worldwide and can be done here, it's a 
tremendous national security threat. So perhaps I'd rate it 
almost at the top.
    Senator Cantwell. Okay. So, what do you think are some of 
the things that we should be doing to pursue better alignment? 
Some of the things that are being done right now are, you know, 
voluntary. And what do you think we should be pursuing?
    General Cheney. Well, of course the vast majority of our 
utilities are privately owned in this country and enforcing 
upon them to do the research and then necessarily help to 
counter cyber threats is not the way to go about doing that.
    I think you need to fund that from the federal level. You 
need to do research and development on cyber. You need to have 
a healthy Cyber Command that's looking at these threats and you 
need to assist all the utilities in the country in countering 
these threats. DHS needs to be involved. They need to be 
robustly funded to counter the threat that's there.
    Senator Cantwell. One of the things that Senator Murkowski 
and I were able to do is have a discussion in the Pacific 
Northwest when we were out there looking at a variety of grid 
issues, both in Alaska and Washington. The State of Washington 
has gone to a great degree in getting the National Guard to 
also plan on a response side so there is a response mechanism 
to cyberattacks.
    Do you think that is a wise----
    General Cheney. It's absolutely wise.
    When you look at any catastrophic event that happens in 
this country, for instance, Superstorm Sandy, Katrina, they all 
become joint events. The Army, Navy, Air Force, Marines, Air 
Guard, the National Guard, all respond to those events. And I 
don't think you can segregate cyber from that type of 
catastrophic event where there's something that's going to 
happen. You have to have the Guard involved. They have to be 
planned.
    If all the power went out in your state, it's going to be 
chaos. You need the Guard to help put that chaos down or 
assist. So, undoubtedly, they have to be involved. And I think 
all of the Department of Defense needs to be involved.
    Senator Cantwell. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Cantwell.
    Senator Cortez Masto is not here.
    Senator Heinrich.
    Senator Heinrich. General Cheney, I want to follow up on 
the question that Senator Cantwell brought up and take it one 
step forward because, kind of, there are the challenges 
inherent to managing a grid today where we have cyber threats 
that simply were not at the top of our mind when we designed 
this architecture and designed it for reliability and 
oftentimes don't upgrade the software on some of these controls 
because we just like it running the way it runs.
    I say this as somebody who was somewhat exposed to these 
things growing up in a utility household where my dad was 
responsible for a lot of that reliability.
    Have you thought about the next step of how changing the 
grid architecture itself moving from the 1970s, 1980s model of 
one-way generation as we get more distributed energy resources 
into that grid whether that is distributed generation, whether 
that is storage in exchange for, maybe, new transmission or new 
substations, et cetera, how that will impact the resiliency of 
the grid and what we should be thinking about as that natural 
evolution occurs?
    General Cheney. You know, Senator, great question.
    I think there's no doubt and I hear my contemporaries 
talking about oil and the future of oil, but you need to 
diversify your source of energy here. I mean, you can even look 
at Saudi Arabia today and they're thinking long, long-term that 
somehow they've got to wean them off this oil economy. The same 
thing applies to our infrastructure. The same thing applies to 
bases and stations.
    When I was a Base Commander down at Paris Island, we relied 
entirely on the local grid. If that grid went out, we had an 
alternative backup, an oil-fired power plant that would 
temporarily provide us power. But if we had a long-term source 
of our own power, as is being developed in the DoD today with 
net zero programs in the Air Force and Army at a huge number of 
bases, Fort Bliss, Nellis Air Force Base, what they're doing is 
going to a case where they would produce more power than they 
can consume and not have to depend on the local grid in case 
that goes down. It's a tremendous security issue. Your base 
would shut down if that was the case. So you have to diversify 
and these are some of the ways you can do that.
    Senator Heinrich. Right. We saw that just a few years ago 
with Kirkland Air Force Base as we saw gas come offline, 
natural gas losing pressure and having to shut down, doing 
millions of dollars of damage as we lost that source of energy.
    And you mentioned Saudi Arabia. I don't think you have to 
look to the other side of the world to realize how much things 
are changing, and a lot of it has to do with economics.
    You look at New Mexico and we have a chunk of that Permian 
Basin production. But at the same time, when you look at the 
electrical generation side of the scale which has seen more 
change than the transportation side, we are seeing two and 
three cents power from solar PPAs and from wind farm PPAs that 
are driving this change and driving an awful lot of economic 
development as a result.
    Which brings me to a question for you, Mr. Coward, because 
as you mentioned there are a lot of nuclear power plants that 
are currently shutting down because of economic conditions, 
because the reality is we do live in a spot market. And I don't 
know how you make ten cents power function in a four-cent spot 
market.
    So what are we doing to make the U.S. nuclear fleet more 
economically competitive at a time when you are seeing it 
undercut by a factor of two or three from other generation 
sources?
    Mr. Coward. Well, I think, if you look at the industry, got 
together, to use a phrase, about a year and a half ago, two 
years ago and said, we're going to leverage the experience, the 
insights, the knowledge of all of us in the industry and work 
together to identify all the various opportunities to be more 
efficient, more effective, eliminate non-value work. That 
program is working right now and we're seeing the costs go down 
some. There are still regulatory costs which the industry 
believes are higher than they need to be.
    I think the simple fact, I'll just cut to the end, I think 
the simple fact is a nuclear power plant can put power onto the 
grid. A reliably, well-run plant can put power onto the grid. 
It goes over the fence at about three cents a kilowatt-hour. 
When you add T&D, all the overhead from the utility system, 
that's how it gets to ten.
    It's competing right now with natural gas plants which are 
somewhere in the teens and it's competing with wind which is 
getting a little bit, which is getting about 2.3 cents a 
kilowatt-hour tax credit.
    And so, you know, you mix all that together and the reality 
is in the end, I'll be honest, a nuclear power plant is not 
going to compete with----
    Senator Heinrich. We can all play the levelization game, 
but you also get a benefit having to do with your insurance 
that is substantial. And so, if levelized everybody was going 
to say, okay, this is the future. Why aren't you attracting 
more investment?
    Mr. Coward. I think we're not attracting more investment 
because it is difficult for nuclear power to be the low-cost 
provider in a low-cost decision market. We don't believe the 
decision should be made on low-cost today. We believe decisions 
should be made on a strategic, longer-term, diversity, 
resiliency, security basis and that, just like some people buy 
an Accord instead of a Civic, that there are reasons to still 
promote a nuclear power program, that the value is there 
overall.
    Senator Heinrich. I think that is a tough sale to the 
consumer.
    Mr. Coward. We know that.
    The Chairman. Senator Heinrich, thank you.
    And my apologies, Senator King, I skipped right over you. 
Mea culpa, mea culpa. It is now to you.
    Senator King. I will find a way to get back at you, 
Senator.
    [Laughter.]
    Thank you very much. No problem at all.
    I have to note that I think every single one of you have 
mentioned EIA somewhere in your testimony and the data that was 
provided. The current Administration budget cuts EIA.
    We have also had quite a bit of discussion about energy 
reliability and the grid. The budget cuts the Electric Delivery 
and Energy Reliability Office in the Energy Department by 40 
percent. So I just note those data points in terms of our 
consideration of this budget.
    The Chair and I were at a conference this morning on the 
Arctic. Arctic sea ice has declined by two-thirds in about the 
last 15 years. I was in Greenland this time last year and saw 
what is happening there where the retreat of the ice sheet is 
accelerating in ways that no one imagined, even five or six 
years ago. There is a cost to this.
    General Cheney, I want to complement you on your testimony. 
You were balanced, and you talked about the costs and the 
benefits. I suggest you and Mr. Mills have lunch together and 
talk about that because the growth of the fossil fuel 
dependency is not an unalloyed good. We are going to spend a 
lot of money dealing with the consequences of climate change. 
We are going to be building walls. They may not be in Mexico, 
but they are going to be sea walls all up and down the coast of 
this country that are going to be incredibly expensive.
    And this is after spending most of my adult life in energy, 
my conclusion is there is no free energy lunch. Everything has 
a consequence. Everything has a result. Everything has a cost. 
I just think that is something we have to really focus on.
    Mr. Webster, a specific question. You mentioned about LNG 
and I understand the shale revolution, natural gas has been 
enormously beneficial to New England and to Maine. Here is my 
concern. Unrestrained LNG exports, explain to me how that 
doesn't relate, result, in higher domestic prices.
    I am a country lawyer from Brunswick, Maine, but if you 
drastically expand the sales and the demand with the supply 
somewhat constant, although I understand it is growing, there 
seems to me, increases in prices are inevitable.
    Mr. Webster. Thanks for your question, Senator.
    So there is some concern that prices might rise marginally 
because of exports. That was said, I think, in the first export 
application that was put in some years ago that I think that 
first one was that they might rise as much as six cents.
    With the rise of the Marcellus and the production growth 
that you've seen out of the Marcellus, you do have a lot of LNG 
export that can go elsewhere. The difference is that because of 
the increased cost on liquefaction, transport and then moving 
it to whatever market you're talking about, that price is still 
fairly cheap back here in the United States.
    Senator King. It is about----
    Mr. Webster. Sorry.
    Senator King. ----between $2 and $3 a million BTU?
    Mr. Webster. That sounds about right. That sounds about 
right, Senator, yeah.
    Senator King. And you think that is enough? I mean, I hope 
you are right.
    Mr. Webster. Yeah.
    Senator King. I don't know the answer but it just concerns 
me that we are not--there have been economic studies, but we 
are reaching a point on exports where there could be a more 
significant effect.
    Do you share that concern that there is some point?
    Mr. Webster. Actually, the more global concern right now, 
certainly over the next several years, is actually the concern 
that from a market standpoint that there's far too much natural 
gas in the world than actually it's looking for places on where 
it can actually find a home.
    You know, you've got increased exports out of the U.S., 
increased exports out of Australia. The demand that was 
expected in a couple of different countries is not quite----
    Senator King. Well Australia is one of the cases that 
worries me because they went into exports in a big way and 
their domestic price increased very substantially, something on 
the order of 100 percent.
    You are not concerned? Do any of you want to comment on 
this problem? Is it not a problem? I don't understand how you 
drastically increase the demand for a product and don't 
increase the price and the market doesn't increase.
    Mr. Webster. I'll pass that on to Mr. Mills because I know 
he has something on this as well.
    But certainly, we've also increased, again, we've also 
increased production more than a third just in the last few 
years.
    Senator King. So----
    Mr. Webster. So you are right, you're increasing demand.
    Senator King. If you increase demand and increase 
production, I understand, you will end up with a similar price.
    Mr. Mills, are you worried about this at all or do you 
think we do not even have to consider the domestic effects?
    Mr. Mills. First Senator, I want to thank you for the 
opportunity to have lunch with the General. It would be a 
pleasure.
    [Laughter.]
    I suspect we'd probably have a lot of similar views--or 
more similar than dissimilar when you speak in five-minute 
bytes.
    I would say the fundamental--I don't have deep concerns 
about it, the short answer is.
    Australia did some structural things which, I would hope, 
we wouldn't do with respect to expanding domestic use of 
natural gas.
    The real, the underlying question, you're absolutely right, 
if you have a limited supply and demand rises, you end up 
getting price increases. This is, sort of, Economics 101. It's 
a given.
    The real question at the, sort of, high level of extraction 
is how big is the supply? If the supply can expand faster than 
demand, obviously.
    Senator King. Right.
    Mr. Mills. Right?
    So the real question is looking at global markets, to 
Jamie's point right now, where the supply has expanded much 
faster than demand. This is why LNG prices and gas prices are 
in free fall globally, to everybody's benefit, except Putin and 
Cutter.
    Our capacity to produce gas is so astonishing, I think it 
really has not been fully appreciated, not by this Committee, 
but in general. It is so astonishing and there's so much 
natural gas capacity, so much untapped capacity to produce it, 
that, I think, this really changes the game, not just the way 
you describe worrying about price pressures. But I think it has 
not been factored into how we think about alternatives.
    My point about being bullish on oil and gas is not that's 
what we should use, that's what we are using.
    Senator King. Right.
    Mr. Mills. There are, just as you correctly said, that 
there are, sort of, limits to, you know, what can happen in 
reality, this is the physics of energy are what they are.
    Oil is a very dense fuel. It's very good for flying 
airplanes with. It's much better than a battery for a car. It 
will take a lot of money, a lot of time, to beat it. So, the 
reality is that low cost energy is a benefit, not an alloyed 
benefit, but it is an overall benefit because we need new 
technologies.
    So, I would just----
    Senator King. As long as we also consider the externalities 
of the costs of climate change, for example.
    Mr. Mills. Well----
    Senator King. And those sea walls and other costs that we 
are going to have to bear.
    I am out of time. Can I just ask one question for the 
record, Madam Chair?
    Mr. McGroarty, a question for the record and I think you 
touched on this in your testimony which, by the way, was very 
good and very sobering.
    Do we have the minerals? Is this a case of us having to go 
abroad because they do not exist in this country? And if we do, 
what are the barriers to us being able to reduce our dependency 
on oversea sources for these critical minerals?
    If you could give a written response on that?
    Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator King.
    Know that we might actually get that on the next round, 
because I would like Mr. McGroarty to speak to that.
    We skipped over you already, Senator Cortez Masto, so now 
back to you.
    Senator Cortez Masto. Thank you. I appreciate that. And I 
apologize, excuse me, I have a Banking Committee going on at 
the same time.
    I am going to ask that question because I am from Nevada 
and mining is very important in our state and we tried to----
    [Inaudible comment from witness]
    Exactly, so listen--rare earths, as you well know, we tried 
to mine it and it was cost prohibitive. And I have watched over 
the years as China has taken the lead on this.
    In Nevada, as you well know, the innovation in clean energy 
is crucial. We have Tesla there. We have drones. This new area 
for renewable energy solar, hydroelectric, geothermal, is key.
    So I was going to ask you the same question. What do we 
need to do? What are the barriers? How do we address this and 
is it too late for us to start looking at how we start 
investing in these metals and minerals that are going to be 
important for our clean energy future?
    Mr. McGroarty. I hope it's not too late.
    We certainly are resource rich. Now, I'll be careful on 
that and say, do we know that we have resources, known 
resources, for many of these metals and minerals? And the 
answer to that would be yes.
    Do we know if they're economic or not? That's a different 
question, partly because of the barriers and the complexities 
of funneling capital and finding that out. Right?
    Part of that is the permitting process which is, kind of, 
sprawled and is notoriously lengthy and opaque. And I would say 
the cost of that is higher for us as a country when the metals 
and minerals are critical and strategic, when there's, you 
mentioned, Senator, Nevada, the Gigafactory, for instance, 
right?
    If you're looking to build EV batteries, you're going to 
need lithium. We know that from lithium-ion. The irony is 
lithium is the least in terms of volume. Why it's named that is 
a good question.
    Graphite, manganese, nickel, cobalt, okay? We have deep 
dependencies in all of those.
    And then the question is, to the extent that they come from 
countries where there is political uncertainty, possibly 
instability, where they are ranked very low in terms of, you 
know, Freedom House indices of whether they're free or not 
free. So, are we comfortable importing from those countries 
over time? The answer should be, if we could substitute our 
own, no. We should pursue the substituting of our own.
    Are we giving leverage to the Chinese, to the Russians and 
others? I cited on the heat map there this growing, rapidly 
growing, dependency on China which is mining these metals and 
minerals. So, the question is going to be we're in the midst of 
this technology revolution. We're going to need this stuff.
    I think we'd all like to see the United States 
manufacturing more of this, that we need, as opposed to being 
purchasers of it and then dependent for a price, dependent for, 
you know, geopolitical gamesmanship that could be played in the 
future of those kinds of things.
    We do it. We are fortunate in contrast to many other 
nations where they're as dependent on these technology metals, 
but they do not have the resource underneath their land in 
order to remedy their dependency.
    We, I think, are in a different place. The Committee is 
working on that, particularly on critical and strategic 
materials to create more incentives.
    I mentioned a few small programs where this is happening. 
There are some very interesting things going on with some 
government support, you know, this idea of extracting rare 
earths from materials adjacent or associated with coal deposits 
is a remarkable thing, right? And the Department of Energy is 
working on exploring that right now.
    The same thing with, I am not at all opposed, I'm not only 
for primary mining. I'm not opposed at all to reclamation work 
from, you know, waste piles that have been sitting around for 
generations or recycling, to the extent that we can efficiently 
and effectively, reclaim metals and minerals, half of the 
Periodic Table sitting in our iPhones, like micro amounts. Can 
we figure out a way to do that effectively and efficiently?
    Those are mines. Those are urban mines. And our dependency 
is so deep we have to get these materials from all of the 
above, new mines, reclamation, recycling, you name it.
    Senator Cortez Masto. I know my time is up, and thank you 
for the conversation.
    Your testimony was sobering. It is an area, I think, I can 
hear from my colleagues, we would love to have further dialogue 
and discussion on how we try to ensure that we are leading the 
country in some of these, mining that is necessary for the 
future of our technology and renewable energy and where we 
would want to lead here in this country.
    So thank you.
    Mr. McGroarty. Thank you.
    The Chairman. There is just such a codependency between the 
future for our renewables, and not just our renewables but in 
all aspects of economic growth, and these critical minerals. 
So, I appreciate that.
    Senator Cassidy.
    Senator Cassidy. Can I defer to----
    The Chairman. I am sure that Senator Hirono would be 
anxious to accept that deferral.
    Senator Hirono. You are actually on my list ahead of 
Senator Franken, but if Senator Franken is being deferred to by 
Senator Hirono, who has been deferred to by Senator Cassidy--
    [Laughter.]
    Senator Franken, you are up.
    Senator Hirono. I will go.
    Senator Franken. You will go?
    Senator Hirono. Yes.
    The Chairwoman recognizes me, so fine.
    I was intrigued by Mr. McGroarty, with your testimony 
because while we have all these rare minerals, it is, sort of, 
that we have gotten to a position where we have not really 
exploited what we have. Why was that? Is it because it was just 
so cheap to get all of these materials from outside of our 
country? What? Why did we allow this to happen?
    Mr. McGroarty. I think there is, yeah. We can blame Milton 
Friedman for that, right, I think, to some extent.
    I think what I would like to see added back into that 
equation is the potential dangers or costs associated with--
that come from geopolitics, where, you know, it's always nice 
to have something for the cheapest possible price, but there 
are certain things where, Senator, you referenced the fact that 
we were mining for a period of time some rare earths out of the 
Mountain Pass Mine in California. It, you know, did not make 
it. It went bankrupt. Again, we're back at 100 percent 
dependencies.
    There are active efforts to remedy that and not all rare 
earths are created equal. So I wouldn't go into all the details 
as to why that particular deposit might not have been optimal 
for what we needed because there are 17 rare earths and, you 
know, you need to be specific about which ones you're after.
    But we, I think, a large part of it and this is something 
that this Committee knows well, but perhaps needs to be 
communicated far beyond this Committee, an understanding that 
our manufacturing might, our technology development is 
dependent on access to these things if we are going to win. You 
know, there's tremendous genius in America and a lot of 
innovation and inventiveness, but we need the materials, the 
materials science, in order to make those products here and 
make those advances here.
    Senator Hirono. I think that you describe an interesting 
scenario because for a state like Hawaii, I mean, we talk about 
depending on sources outside of our state for some very basic 
needs--such as in Hawaii we were the most oil-dependent state 
in the entire country for electricity.
    I want to ask, General Cheney, since 2006 Hawaii has cut 
its annual use of petroleum by 41 percent, or 20.2 million 
barrels, while renewable energy grew from 9.5 percent on the 
electricity side of the market in 2010 to 26.6 percent in 2016.
    The State of Hawaii has the most ambitious goals toward 100 
percent renewable and alternatives for our electricity. I would 
like to see a similar transition in the transportation sector.
    General Cheney, what policies do you recommend to 
accelerate the transition to electric vehicles or advanced 
biofuels that you referred to in your testimony?
    General Cheney. Senator, congratulations on your progress 
on using renewables. I think it's remarkable.
    And you'll see tremendous progress, particularly in the 
Midwest, with the use of wind energy states that are coming now 
upwards of 40 percent of their energy provided by wind. So they 
certainly recognize the advantages of it, as you have as well.
    When I heard Mark talk a little bit about aviation and 
their dependence on fossil fuels for their energy, FedEx has, 
at one time or another, fueled all their airplanes with biomass 
developed fuels. The United States Department of Defense has, 
at one time or another, put biomass fuels into almost all their 
aircraft. So there are ways to do this using biomass instead of 
just using straight fossil fuels that were not developed 
through biomass. That's one distinct way to encourage 
development on the biomass side of the house. The price of 
biomass fuels is coming down dramatically. And you will see 
this.
    The same thing applies on the hybrid and battery side of 
the house. My biggest concern when I was an Executive Officer 
of an Artillery Battalion in the desert was where's the next 
gas station? If I had some source of renewable power or a 
hybrid energy which would get us off that tether of fossil 
fuels which General Mattis said when he was in Iraq. He said, 
``Please get me off this tether of fossil fuels'' because the 
logistic trains were being attacked universally. There are much 
better ways to get off that tether. So certainly the Senate and 
Congress can help us with that.
    Senator Hirono. So, there are ways that we can move much 
faster in terms of the transportation sector and the reliance 
on renewables and alternatives in the transportation sector 
because we seem to be doing a much better job of it in 
producing electricity for consumption, electrical consumption. 
But on the transportation side----
    General Cheney. It's not the same.
    Senator Hirono. It's not the same. If you wanted to move 
faster toward that kind of reliance on alternatives and 
renewables because we care about things like climate change. I 
would welcome any further ideas that you would have to 
incentivize to move in the transportation sector.
    I am running out of time; five minutes goes by awfully 
fast.
    Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Hirono.
    It looks like Senator Cassidy is prepared to defer to our 
colleague from Minnesota, Senator Franken. Everyone is 
generating good will this morning.
    Senator Franken. Well thank you, Madam Chair and thank you 
to the Senator from Louisiana.
    I was struck just now, General Cheney, when you talked 
about this tether to fossil fuels, to diesel fuel, I think, 
mainly for generators.
    You know, I used to do USO tours. At that time there was 
both Walter Reed for Army and Bethesda for the Marines. You 
would go to Walter Reed and there would be guys who had lost 
limbs, et cetera, TBI, and ask them what they did and they, 
very often, were truck drivers. You go to Bethesda and those 
guys got shot up in places like Fallujah, but what it was is 
the supply line. I know that when I talked to the military, 
they talked about solar, trying to make tents out of solar so 
that you don't have to rely on the more efficient, even more 
official generators could save lives.
    So when we are talking about security, I think that the 
first two gentlemen seemed to be talking mainly about domestic 
fuel production, but General Cheney, you have a different point 
of view. Can you elaborate on how increasing short-term energy 
security via increased fossil fuel production can have 
negative, long-term impacts on energy security?
    General Cheney. Well, I think I mentioned in my testimony 
and certainly in my written comments that this increase has 
given us breathing space now so there's obviously an advantage 
here, but long-term, I think we need to recognize we can't 
continue to rely entirely on fossil fuels.
    The number one consumer of fossil fuels in the country and 
maybe the world is the Department of Defense, and they know 
this and they recognize it and they're searching for 
alternative ways to source their energy. And they know that 
now.
    One quick comment about the soldiers who were in those 
logistics trains. Those young men and women got shot up too, 
so, I mean, they were in combat. They were on the front lines.
    Senator Franken. I understand that.
    General Cheney. I mean, they gave their lives for us to 
supply the fossil fuels to support our troops.
    Senator Franken. Yes, so much was IEDs though, yes.
    General Cheney. Yes, precisely.
    So I mean it, long-term, overreliance on this abundance, 
overabundance of fossil fuels is not a good thing. The DoD 
needs to diversify. Any good commander needs to know he has to 
have alternative sources of all things, let alone fossil fuel 
or energy.
    You will see that in terms of, also you mentioned the 
tents. Forward operating bases that are supplied their 
communications and electronics are, their energy, is supplied 
by solar arrays instead of having to hike batteries up there or 
diesel fuel to supply the generators. So there are ways for 
this to be done.
    Senator Franken. Well, I want to talk more about climate 
change and the Department of Defense because you are right 
about the Department of Defense using Algol fuels and other 
non-fossil jet fuels.
    This is from the report to Congress from the Department of 
Defense in 2015, ``Climate change is an urgent and growing 
threat to our national security contributing to increased 
natural disasters, refugee flows and conflicts over basic 
resources such as food and water. These impacts are already 
occurring and the scope, scale and intensity of these impacts 
are projected to increase over time.''
    General Cheney, I know that last week you spoke about the 
threat that climate change poses to national security at a 
House Science Committee Roundtable. Can you tell this Committee 
how the Department of Defense should be preparing for climate 
impacts and more broadly, how Americans should be thinking 
about the link between energy decisions and national security?
    General Cheney. Sure. Clearly this is a longer conversation 
than we have time for here, but I'll try to boil this down very 
quickly.
    As I mentioned last week, I put it into two categories, 
strategic and tactical. And when they said it's the number one 
threat, when you go back to Admiral Locklear in the Pacific 
Command, he was looking over his whole area of operation and he 
said catastrophic weather like Typhoon Haiyan is becoming much 
more common and he's got to respond to those. Climate change is 
a contributor. He recognized the threat.
    Refugee crisis, Bangladesh, foot and a half rise in sea 
level gives you 30 million refugees, not coming here, but 
they're going somewhere else in Asia.
    Senator Franken. It is destabilizing.
    General Cheney. Hugely destabilizing.
    That's the strategic side of the House, the Sahel in 
Africa. When the temperatures there start to rise to 140 and 
150 degrees Fahrenheit, those refugees are headed to Europe. If 
they think they have a migration problem now, just wait. So, 
that's the strategic side.
    On the tactical side, our bases and stations that are on 
the coast are going underwater. Norfolk is the prime example, 
our largest Naval base, which gets closed dozens of times a 
year now because of flooding, both from rain and sea level 
rise, is really having a problem with that. We're going to have 
to talk about relocation of our bases and stations that are on 
the coast, and I can delineate a number of these. The DoD 
understands that and looks at that and General Mattis, and now 
Secretary Mattis, has looked at that and said he understands 
climate change. He recognizes that as a threat. It's been 
written into the Quadrennial Defense Review before. Again, when 
you're talking long-term, strategic threat and where you're 
going to have instability, and in short-term, the tactical 
side, what bases and stations are going underwater and what you 
have to do to adapt to move those.
    Then getting to your other question about fossil fuels, the 
mitigation side of the House, get off your dependence on fossil 
fuels. Stop contributing CO2 to the atmosphere. Stop making the 
problem worse.
    Senator Franken. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Franken.
    Senator Cassidy.
    Senator Cassidy. Thank you, all.
    Now, General, just to be clear, as we speak of needing not 
being tethered to fossil fuel on the front line, it is not to 
say that a transport truck would not be by fossil fuel, I 
presume you just mean the electricity for the tents providing 
the power?
    General Cheney. Senator, not so. You could have hybrid 
vehicles for sure.
    Senator Cassidy. Now that presumes that we continue to 
fight only in deserts. If we are in an overcast area to have, I 
can only imagine, if you have something with, I don't know, 50 
troops and are in an overcast environment, you would need, 
probably, fossil fuel, correct?
    General Cheney. Well, like I said, if you had batteries 
that were recharged and they worked on a hybrid, just like 
Volvo stock----
    Senator Cassidy. It really does seem, though, a lot of ifs 
involved with that for something which absolutely needs 
certainty.
    Mr. Mills, I enjoyed your testimony because you point out 
some certainties that we actually, since the Arab oil embargo, 
have become more dependent upon fossil fuel. I will note, 
however, that we have actually decreased global greenhouse gas 
emissions in the United States as we transition from coal to 
natural gas. Fair statement?
    Mr. Mills, this is a little bit far afield, but I found 
your testimony very realistic if China, which gets 63 percent 
of its electricity from coal, converted to natural gas, any 
idea what the impact that would have upon global greenhouse gas 
emissions?
    Mr. Mills. Well, it would be a dramatic reduction in global 
gas, carbon dioxide emissions, for very obvious reasons.
    Senator Cassidy. As well as SOX and NOX, et cetera, right?
    Mr. Mills. Well, the air would get a lot cleaner in China. 
I've been to about a dozen cities in China, its particulate 
emissions are pretty severe.
    Senator Cassidy. I have actually seen graphs that show the 
SOX and NOX blowing from their coastal power plants falling on 
to Oregon, Washington and California. So not just globally, but 
locally, it would make our West Coast a little bit cleaner too.
    I just see that because you point out that for the 
foreseeable future petroleum and natural gas will be more, not 
less, important.
    I also like, now I will agree, that if we absolutely, that 
we produce, if we become energy secure, less dependent upon 
other countries, perhaps we need fewer troops committed to the 
Middle East to protect sea lanes. That would be something that 
would save a lot of young people's lives if we were not having 
to commit our troops to protect sea lanes for the sake of oil, 
if Israel develops Leviathan, as they appear to be, then that 
would, of course, insulate Israel from some of the shock.
    I also liked your point, Mr. Mills, the degree to which we 
develop LNG exports, this is implicit in what you were saying, 
and perhaps Israel and Azerbaijan and others develop their gas 
exports, Russia is weakened. Isn't that a wonderful thing? That 
in itself might forestall some conflict. I think we can all 
agree upon that, right?
    Mr. Mills. You bet.
    Senator Cassidy. So that is a tectonic plate, as you 
mentioned that is almost amazing.
    Now, somebody, I think I was told that Senator King was 
concerned. Do we have, oh, here we go, enough gas to fuel this, 
but Mr. Webster and Mills, perhaps you all followed up?
    I am told we have at least 93 years of proven, 
technologically, we can get it, natural gas reserves which more 
than enough insulates us from price increases even if we 
continue to export.
    Fair statement, Mr. Mills?
    Mr. Mills. I think it's fair and it's, in my view, an 
understatement of the magnitude of the resource that will be on 
tap through technology.
    Senator Cassidy. Now, I would argue that if we are going to 
increase our security through that subtle power you speak of in 
your testimony, of undermining the Russians' ability to come 
after us or to go after Europe by choking off their natural gas 
and if we are going to help China reduce their global 
greenhouse gas emissions by substituting natural gas for coal 
and thereby improve our West Coast environment as well, we 
actually need to do more exportation, more exploration of 
natural gas. Would anybody dispute that?
    [Panel shakes heads no.]
    I think that is, kind of, almost so self-evident.
    Mr. Mills. Sure it is.
    Senator Cassidy. So whatever we do with renewables which is 
laudable, the reality is we are going to have more of an impact 
upon global greenhouse gas emissions and our international 
domestic security by increased development of our natural gas 
as well as facilitation of that export. That is energy 
security.
    I yield back. Thank you.
    The Chairman. Thank you, Senator.
    Senator Manchin.
    Senator Manchin. Thank you, Madam Chairman.
    Thank all of you.
    I am so sorry. Sometimes our meetings run over and we are 
in different areas at different times, but I am glad to be 
here.
    We are introducing what we call the Appalachian Storage 
Hub. With all the newfound gas we have, with the wet gas we 
have especially in the Marcellus/Utica shale, now the 
Rogersville coming on and then West Virginia, Pennsylvania, 
Ohio and maybe even Kentucky too, hooking these up with a 
storage hub that basically would move some of our critical 
energy products that we have, which are now mostly located in 
the Southwest and giving us more opportunity and I think, more 
national security also because we are not in the path of a 
hurricane and we are pretty much protected by the mountains. So 
we think it would be a great opportunity. I don't know if you 
all know anything about that or have looked into that and what 
your opinion might be on moving that forward.
    Yes, Mr. Mills?
    Mr. Mills. Senator, you put your finger on something that's 
critical for the grid and also for general domestic energy 
security of the Northeast, which is starved for storage 
capacity, as you well know. Adding a gas storage capacity, both 
wet and dry gas, is probably the single most important and 
simple thing that can be done to increase domestic reliability 
on the grid which is becoming increasingly gas centric.
    If you look at the total amount of generation growth 
forecast for the next decade in the United States and in the 
Northeast, gas turbines are the go to. And you don't want to be 
dependent just on pipes, you need to have storage, 100 percent.
    Senator Manchin. Well, if we can get you all--can we get 
any written statements in support of that because we are 
working with the Department of Energy. I think they feel the 
same thing, but coming from the expertise that you all have 
would be tremendously helpful, sir, tremendously helpful.
    Mr. Mills. Be happy to do that, Senator.
    Senator Manchin. Next, speaking on reliability, in West 
Virginia we have been blessed with everything, but we are an 
all-in energy state. Everybody thinks it is all about just coal 
and just fossil, but really, we are trying everything that we 
can, but the baseload. There is a study being done by 
Department of Energy on the reliability of the grid.
    And I am so sorry, I am sure you might have talked about 
this previously with other Senators, but I am very much 
concerned about that because I remember the Polar Vortex. I 
know we almost went down, especially the PGM system was very 
razor thin of collapsing. With more dependable, reliable, 
affordable coal plants coming offline, have you all looked at 
the critical factor that we have there and the jeopardy that we 
are putting into the grid system?
    Mr. Mills. Well, let me make an observation that was in the 
news with respect to South Australia which echoes the direction 
that a lot of people hope the grid will go.
    As you know they have had several blackouts, one very 
recent. And the news and the Wall Street Journal said it was 
because we were exporting, they were exporting natural gas. 
That's not the reason the blackout occurred; it's because that 
part of Australia has 40 percent of its electricity currently 
coming from wind turbines. When you have wind subside, you have 
to have other capacity. If you can't import it and the import 
capacity is limited because the magnitude of the drop, you do 
rolling blackouts.
    The answer that Elon Musk has proposed is to build a 
battery plant which is good. Batteries work. I ran a battery 
factory for a while. I know a little bit about batteries. But I 
would like to point out that in order to store half a day of no 
wind in South Australia, Elon Musk would have to build 150 of 
the battery plants he's planning to build and he's building one 
which he says will be three times bigger than the world's 
biggest utility battery plant. And South Australia, I'll note 
for the record, has about one-third of the population of the 
grid of the Washington, DC, area.
    So, when you begin to think about these energy solutions, 
scale matters and that's where storing gas and building more 
gas turbines actually matters.
    Senator Manchin. Well, uninterruptible power, I mean, and I 
have understood it for a long time and tried to and a lot of my 
colleagues on both sides of the aisle, but on my side of the 
aisle, sometimes are in disagreement, but they just don't 
understand where the electricity, where it comes from. And it 
has to be uninterruptible.
    The only two things you have uninterruptible in the United 
States or in the world that I know of, is coal and nuclear. 
Everything else is interruptible. And the only third one that 
has surpassed or is equal to coal is natural gas, even though 
that is interruptible, but you are still in jeopardy.
    All of the renewables, God bless them, we like it. We like 
wind, solar, we like it all. So when people tell me they want 
everything on renewables, I say just tell me what five hours of 
the day you want your power, and I am happy to oblige you. I am 
happy to take care of you because that is what you are going to 
get and nothing more than that.
    But in some parts of the country, unless that system, that 
grid can back it up, they are in great peril and they don't 
really realize it.
    So we are looking at how do we continue to have a 
dependable, reliable delivery system? We need people like 
yourself speaking out in common sense until--see, I believe in 
my heart that we are going to find, eventually, commercial 
hydrogen, which is water vapors. I keep believing that. And 
maybe it will happen in our children or grandchildren's lives.
    There is going to be some magical, clean green that 
everybody's happy with. But until you get to that day, you have 
to be in the real world. And the real world is you better have 
so much reliable power and coal is going to play a major part, 
30 percent or more, for the next 20, 30 years. Do you all agree 
with that?
    Mr. Mills. Senator, coal use globally, as you know, is 
going up----
    Senator Manchin. Oh, it is not going down.
    Mr. Mills. Let me just echo your sentiment.
    Everyone agrees it would be nice to have different forms of 
energy. We need them at scale in reliability. In the world I've 
worked in for decades, as a physicist and looking at the 
physics of energy, we used to call that the search for 
unobtanium.
    [Laughter.]
    Senator Manchin. Unobtanium. Makes sense.
    Anybody else want to comment?
    General Cheney. If I----
    Well, Senator, what this has done is given us breathing 
room to pursue alternative sources of power. And I know Bob 
would certainly agree, small modular reactors, for instance, 
are possible----
    Senator Manchin. You are talking about nuclear, nuclear 
reactors, right?
    General Cheney. You can do that.
    Senator Manchin. Yes.
    General Cheney. Long-term, and I know some people laugh at 
fusion energy, but when you go outside and look at the sun, 
it's there. It can be done if you've got the right amount of 
research in it. And I think this is the time now to start 
investing long-term in some of those other sciences while we've 
got that ability to have an overabundance of oil and fossil 
fuels.
    Senator Manchin. Yes, Mr. Coward?
    Mr. Coward. What I would add, Senator, just is, you know, 
obviously I have not seen the DOE study, but I think this is a 
very important, critical subject for our entire economy and 
standard of living, the continued, you know, every time you 
flip the switch, it comes on.
    What I would suggest is, as we all move forward together, 
my organization, myself, we support the classic all-of-the-
above. We should be pursuing all energy options. But as we go 
forward in the spirit of contingency, reliability, confidence, 
we need to make sure we don't inadvertently allow ourselves to 
make overly optimistic assumptions.
    And the one, the example I'll give you is in the last 
several years the energy storage industry has moved forward by 
leaps and bounds. A tremendous accomplishment, it's great for 
the country. Absolutely wonderful.
    I'm also the principal officer, I lead MPR, a leading 
specialty engineering company in the power industry. We were 
critical with our customer AES in delivering and building the 
largest battery energy storage facility in the world in 
Southern California. It went online in February. Its capacity 
is measured in tens of megawatts, tens of megawatt hours, 
alright? Which means that you take a large nuclear or coal-
powered power plant and the largest battery storage, energy 
storage facility in the world, it handles minutes of capacity 
of that facility. So even though energy storage has--or an hour 
maybe.
    So even though energy storage has made great progress and I 
think it will continue to make great progress and it is a 
definite critical part of our infrastructure going forward, all 
of us have to make sure that the pace at which we assume 
technology development will occur is appropriate so we don't 
wake up one day and be disappointed.
    Senator Manchin. Well, West Virginia is happy to continue 
to provide the power that keeps the East Coast lit up.
    [Laughter.]
    If they shut us down, they are all going down, okay?
    [Laughter.]
    And it made it very difficult for our little state to 
produce the power we produce, but we have done it cleaner and 
better and made more advancements in the last 20 years than had 
ever been done in the history of the world. We still get the 
living crap kicked out of us every day by Washington. 
Unbelievable.
    Mr. Coward. Senator, I live in Virginia and I----
    Senator Manchin. I want to flip the switch every now and 
then and just say, hey, how did you like that?
    [Laughter.]
    Mr. Coward. I live in Virginia and I know that Virginia is 
one of the largest energy importers in the country, and we 
thank West Virginia.
    Senator Manchin. Well, we are happy to do it. We like to do 
the heavy lifting, and we will continue to do it.
    Thank you, Madam Chairman, I am so sorry.
    The Chairman. Thank you, Senator Manchin.
    I just have to say, I love these conversations.
    [Laughter.]
    I truly do.
    When I think about our energy potential, when I think about 
what it is that we have and how we are able to supply it.
    Senator Manchin, I have had an opportunity to go to your 
little state and see your all-of-the-above. We recognize the 
great contributions that come out of Nevada when we are talking 
about minerals.
    I talk about Alaska all the time, but you know, when we 
think about diversity of energy supply I think it is important 
to recognize that within this country we have a diversity of 
supply based on our enormous geography and recognizing where we 
each can be those experts, those suppliers, those real drivers 
to our local, state and national economies. I think that that 
is quite significant to recognize.
    You know, as much as contributes from the Gulf of Mexico, 
they talk about being the energy bread basket. Okay, that is 
one energy bread basket, but I think this is important to 
recognize that we all have so much to contribute in so many 
different areas. And oftentimes, we are just limited by the 
technologies that allow us to do a little bit more.
    Mr. Mills, you mentioned the digitalization of energy in 
your testimony. Dr. Birol also mentioned that in his written 
testimony. I should note for the record, he was actually here 
for a few moments. I really appreciate him making that effort 
to try to join us, but his schedule was very, very complicated 
this morning.
    But you think about that, the technology that we know today 
is what we know today, but the advances that we have made in 
the past 20 years, as has been noted by many of you, has just 
been nothing short of remarkable, beyond imagination. Think 
where we are going to be 10 years from now, 20 years from now, 
and particularly within the space of the renewables. I think we 
have so much that we can build out given, again, advancements 
in technologies.
    But I come back to our hardcore reality, and that is not 
meant to be a pun on words, but so much of this is going to 
depend on these resources, these mineral resources that will be 
required to build out these technologies of the future.
    For years we have talked about our vulnerability as a 
nation on oil. We still have that vulnerability when it comes 
to the Department of Defense and this extraordinary reliance on 
that fossil fuel. But I don't want us to go the same direction 
with our minerals as we used to be with our oil. So this needs 
to be an eyes wide open.
    I have advanced my critical minerals bill. It is actually 
part of our energy bill that I am hopeful we will have an 
opportunity to advance on the Senate Floor shortly.
    But how do we do more?
    This is a question for you, Mr. McGroarty, in terms of 
building the awareness that we have this increasing dependency. 
It is kind of tough to move forward sometimes unless people 
recognize that this is a problem for us, but that we do have 
solutions here. I think federal permitting reform is one of the 
things that we need to be looking at, but how do we build a 
growing awareness?
    I don't want to limit this to just Mr. McGroarty because, 
General Cheney, when we think about the implications, again, 
from a national security perspective, making sure that those 
who are part of this supply chain, understand that we have got 
to address this aspect of it as well.
    We are going to have to conclude the hearing here because 
we have a vote that is coming on, but I would like to have a 
little conversation about how we do more on the awareness of 
this as a dependency issue.
    Mr. McGroarty?
    Mr. McGroarty. Yup.
    Senator, it is really interesting to think, first of all, I 
mean, what we're up against is we have, we live in this 
marvelous world where so much of the things that we rely on 
every day seem to be magic and they just, kind of, happen. You 
know, there's a cloud and stuff goes up to the cloud and 
things, you know, energy moves to where it's needed and so on 
and so forth.
    I think we forget the physicality of things. Now the 
physicality of things is rooted in material science, and it's 
rooted in materials. So I think what this Committee does, what 
these kinds of programs do, but more of it is to remind people 
that we're now using a far larger portion of the Periodic Table 
than we ever used in the history of mankind and we have to be 
attentive to where these materials are coming from. We're very 
fortunate. We're very blessed that we have these resources 
here.
    I would say too, in some respects, it seems to me a very 
simple thing that government can do is even just an indication 
that you can send a signal to a market that there's a desire to 
source some of these products domestically and that that will 
have an effect.
    I mean, and I don't mean to, I'm not casting dispersions on 
things done or not done, but for instance, I'm very focused on 
the Gigafactory, figuring out where they're going to get their 
materials domestically for a variety of different reasons, 
jobs, national security, but also, you know, if you think about 
it today, we're getting the bulk of our cobalt comes from DRC 
Congo. We can't be comfortable about that because we're not 
comfortable about that it's getting refined and smelted in 
China, creating leverage there where if we need graphite we're 
100 percent dependent on graphite. We need manganese; we're 100 
percent dependent on manganese. We need lithium, a lot of that 
is coming from a triangle in South America which is prone to 
instability over time.
    So, figuring out how we could substitute with American-
sourced materials is important, but the simplest way to do that 
is for someone to say we want American-sourced materials. We 
see that as a positive and communicating that clearly is a 
market signal that would cause capital markets to look around 
and say, well, who could that be? Where would that come from? 
You know?
    I sit here and I see the states and I think about, you 
know, Senator Franken is gone, but I could mention nickel and 
cobalt and there's Minnesota, on the upper part of Minnesota.
    The Chairman. We have graphite.
    Mr. McGroarty. Pardon?
    The Chairman. We have graphite.
    Mr. McGroarty. You have graphite. I was about to mention 
that. Thank you.
    [Laughter.]
    The Chairman. Yes.
    Mr. McGroarty. So we have all of these different options. 
Gosh, there's some lithium in Nevada that could be just making 
a very short trip to the Gigafactory.
    We lived and experienced the bad and the good of where our 
oil comes from and how we needed more of it for decades and the 
better part, you know, and how that skews national security and 
military strategy. I just don't think we're caught up yet in 
terms of this transformation that's happening in the rest of 
the Periodic Table and how much of it we need. And the stuff 
isn't fairy dust, you know?
    The Chairman. Anybody else want to weigh in there?
    I appreciate that, Mr. McGroarty.
    Mr. Mills. Senator, if I could add the elephant in the room 
with respect to mining in the United States.
    Early in my career I was, I worked for a Canadian mining 
company and spent time on the border of Alaska, the Northwest 
Territories.
    Canada mines a lot of its minerals. It's easier to open a 
mine in Canada than it is in the United States. That shouldn't 
be the case. So the elephant in the room is EPA and how we 
regulate. It's typically not the states, but it can be.
    Until we make an affirmative decision that we care about 
having mining here, I know if you talk to capital markets 
people would invest in mining. They'll tell you unequivocally, 
hold a hearing on it, and I think you will hear every one of 
them tell you the same thing. The capital risks are high 
because of the regulatory delays and uncertainty. As long as we 
keep that in play we'll continue to source rare earths and 
everything else from other nations.
    We provided 70 percent of the world's rare earths 20 years 
ago. As my colleague has just said, we now do zero. It's not 
because we ran out of rare earths. It's not because we don't 
have the technology to do it. We have some of the best miners 
on the planet and the best technology and the safest. But we've 
made an affirmative decision not to do it. I think that's a 
mistake.
    The Chairman. Well, I agree, and it is a concern.
    I think the statistic was that the United States ranks dead 
last or we are tied with Papua, New Guinea, in terms of the 
length of time it takes to permit a mine in this country. I 
think you are right. There has been a policy directive 
direction that has taken us on that path.
    But I think it is something that we need to critically look 
at and evaluate because our situation is such that more and 
more we expect, without question, that these resources are 
going to be made available to us. And it seems that more and 
more these resources are coming from places that would not 
think twice about perhaps squeezing us a little bit. 
Recognizing that vulnerability is something that, I think, we 
must address and we must consider from a broader policy 
perspective.
    Senator Cortez Masto, we have a vote going on, but thank 
you for staying throughout this very important hearing.
    I know that many of my colleagues, not only some of those 
that were coming in and out, we have had a little bit of 
preoccupation with another subject matter this morning, so I 
apologize for that. But know that you all have cleared my head 
and given me focus in the energy space, and I greatly 
appreciate that.
    Thank you for your participation this morning and for your 
ongoing leadership in these important areas.
    We stand adjourned.
    [Whereupon, at 12:22 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                [all]
                
                
                
</pre></body></html>
